23148                        Federal Register / Vol. 68, No. 83 / Wednesday, April 30, 2003 / Notices

     ATTACHMENT 1.—LIST OF SUDS KNOWN TO BE REPROCESSED OR CONSIDERED FOR REPROCESSING—Continued
                                                                                                                                           Critical/semi-
            Medical                                                                                             Product                                     Premarket
                                           Device type                         Regulation No.         Class                Risk 1,2,3,3*   critical/non-
            specialty                                                                                            code                          critical      exempt

227 ..   Surgery ........   Scissor Tips ...................................   878.4800,         I            LRW,                     2   C                Y
                                                                               884.4520,                      HDK,
                                                                               874.4420                       HDJ,
                                                                                                              JZB,
                                                                                                              KBD
228 ..   Surgery ........   Laser Fiber Delivery Systems .......               878.4810          II           GEX                      1   C                N
                                                                               874.4500                       EWG
                                                                               886.4390                       LLW
                                                                               884.4550                       HQF
                                                                               886.4690                       HHR
                                                                                                              HQB
  1 = low risk according to RPS
  2 = moderate risk according to RPS
  3 = high risk according to RPS
  3* = high risk due to neurological use


  Dated: April 23, 2003.                                     much of the discussion in the 1989                       are harmful because they can (1) distort
Jeffrey Shuren,                                              Special Fraud Alert focused on investor                  medical decision-making, (2) cause
Assistant Commissioner for Policy.
                          referrals to newly formed entities, we                   overutilization, (3) increase costs to the
[FR Doc. 03–10413 Filed 4–23–03; 5:03 pm] 
                  observed that:                                           federal health care programs, and (4)
BILLING CODE 4160–01–P                                       [t]he Office of Inspector General has become             result in unfair competition by freezing
                                                             aware of a proliferation of arrangements                 out competitors unwilling to pay
                                                             between those in a position to refer business,           kickbacks. Both parties to an
DEPARTMENT OF HEALTH AND                                     such as physicians, and those providing                  impermissible kickback transaction may
HUMAN SERVICES                                               items or services for which Medicare or                  be liable. Violation of the statute
                                                             Medicaid pays. Some examples of the items
                                                                                                                      constitutes a felony punishable by a
Office of Inspector General                                  or services provided in these arrangements
                                                             include clinical diagnostic laboratory                   maximum fine of $25,000,
                                                             services, durable medical equipment (DME),               imprisonment up to 5 years, or both.
Publication of OIG Special Advisory
                                                             and other diagnostic services. Sometimes                 The OIG may also initiate
Bulletin on Contractual Joint Ventures
                                                             these deals are called ‘‘joint ventures.’’ A             administrative proceedings to exclude
AGENCY: Office of Inspector General                          joint venture may take a variety of forms: it            persons from the federal health care
(OIG), HHS.                                                  may be a contractual arrangement between                 programs or to impose civil money
ACTION: Notice.
                                                             two or more parties to cooperate in providing            penalties for kickback violations under
                                                             services, or it may involve the creation of a
                                                             new legal entity by the parties, such as a
                                                                                                                      sections 1128(b)(7) and 1128A(a)(7) of
SUMMARY: The OIG periodically                                                                                         the Act.
develops and issues guidance, including                      limited partnership or closely held
                                                             corporation, to provide such services.                     This Special Advisory Bulletin
Special Advisory Bulletins, to alert and
                                                             (Emphasis added.)                                        focuses on questionable contractual
inform the health care industry about
potential problems or areas of special                         Notwithstanding that caution, the                      arrangements where a health care
interest. This Federal Register notice                       Office of Inspector General (OIG) is                     provider in one line of business
sets forth the recently issued OIG                           concerned that contractual joint venture                 (hereafter referred to as the ‘‘Owner’’)
Special Advisory Bulletin addressing                         arrangements are proliferating.2                         expands into a related health care
certain contractual joint venture                                                                                     business by contracting with an existing
                                                             A. Questionable Contractual
arrangements.                                                                                                         provider of a related item or service
                                                             Arrangements
                                                                                                                      (hereafter referred to as the ‘‘Manager/
FOR FURTHER INFORMATION CONTACT:                                The federal anti-kickback statute,                    Supplier’’) to provide the new item or
Vicki Robinson or Joel Schaer, Office of                     section 1128B(b) of the Social Security                  service to the Owner’s existing patient
Counsel to the Inspector General, (202)                      Act (the Act), prohibits knowingly and                   population, including federal health
619–0335.                                                    willfully soliciting, receiving, offering,               care program patients. The Manager/
SUPPLEMENTARY INFORMATION:                                   or paying anything of value to induce                    Supplier not only manages the new line
Special Advisory Bulletin: Contractual                       referrals of items or services payable by                of business, but may also supply it with
Joint Ventures (April 2003)                                  a federal health care program. Kickbacks                 inventory, employees, space, billing,
                                                                                                                      and other services. In other words, the
Introduction                                                 also available on our Web page at http://                Owner contracts out substantially the
                                                             oig.hhs.gov/fraud/docs/alertsandbulletins/
  This Special Advisory Bulletin                             121994.html.                                             entire operation of the related line of
addresses certain complex contractual                           2 The kinds of contractual arrangements               business to the Manager/Supplier—
arrangements for the provision of items                      addressed in this Special Advisory Bulletin are          otherwise a potential competitor—
and services previously identified as                        sometimes referred to as ‘‘joint ventures’’ or           receiving in return the profits of the
suspect in our 1989 Special Fraud Alert                      ‘‘contractual joint ventures’’ or may be referenced
                                                             by other terminology. For purposes of the analysis       business as remuneration for its federal
on Joint Venture Arrangements.1 While                        set forth in this Bulletin, a ‘‘joint venture’’ is any   program referrals.
                                                             common enterprise with mutual economic benefit.
  1 The 1989 Special Fraud Alert was reprinted in            The application of this Bulletin is not limited to
                                                                                                                        Some examples of potentially
the Federal Register in 1994. See 59 FR 65372                ‘‘joint ventures’’ that meet technical qualifications    problematic contractual arrangements
(December 19, 1994). The Special Fraud Alert is              under applicable state or common law.                    include the following:
                             Federal Register / Vol. 68, No. 83 / Wednesday, April 30, 2003 / Notices                                     23149

   • A hospital establishes a subsidiary               practical or legal exclusivity for the       then qualify each separate contract for
to provide DME. The new subsidiary                     Manager/Supplier through inclusion of        protection under a ‘‘safe harbor.’’ Such
enters into a contract with an existing                non-competition provisions or                efforts may be ineffectual and leave the
DME company to operate the new                         restrictions on access. While the            parties subject to prosecution for the
subsidiary and to provide the new                      contract terms of these arrangements         following reasons.
subsidiary with DME inventory. The                     may appear to place the Owner at                First, many of these questionable joint
existing DME company already provides                  financial risk, the Owner’s actual           venture arrangements involve contracts
DME services comparable to those                       business risk is minimal because of the      pursuant to which the Manager/
provided by the new hospital DME                       Owner’s ability to influence substantial     Suppliers agree to sell items and
subsidiary and bills insurers and                      referrals to the new business.               services to the Owners at a discounted
patients for them.                                        Third, the Manager/Supplier is an         price. However, where a discount is
   • A DME company sells nebulizers to                 established provider of the same             given as part of an overarching business
federal health care beneficiaries. A mail              services as the Owner’s new line of          arrangement, it cannot qualify for
order pharmacy suggests that the DME                   business. In other words, absent the         protection under the discount safe
company form its own mail order                        contractual arrangement, the Manager/        harbor. Simply put, the discount safe
pharmacy to provide nebulizer drugs.                   Supplier would be a competitor of the        harbor does not protect—and has never
Through a management agreement, the                    new line of business, providing items        protected—prices offered by a seller to
mail order pharmacy runs the DME                       and services in its own right, billing       a buyer in connection with a common
company’s pharmacy, providing                          insurers and patients in its own name,       enterprise. To be protected under the
personnel, equipment, and space. The                   and collecting reimbursement.                discount safe harbor, a price reduction
existing mail order pharmacy also sells                   Fourth, the Owner and the Manager/        must be based on an arms length
all nebulizer drugs to the DME                         Supplier share in the economic benefit       transaction. (See 42 CFR 1001.952(h)
company’s pharmacy for its inventory.                  of the Owner’s new business. The             under which ‘‘the term discount means
   • A group of nephrologists establishes              Manager/Supplier takes its share in the      a reduction in the amount a buyer * * *
a wholly-owned company to provide                      form of payments under the various           is charged for an item or service based
home dialysis supplies to their dialysis               contracts with the Owner; the Owner          on an arms-length transaction.’’). As we
patients. The new company contracts                    receives its share in the form of the        expressly stated in the preamble to the
with an existing supplier of home                      residual profit from the new business.       1991 safe harbor regulations, the
dialysis supplies to operate the new                      Fifth, aggregate payments to the          provision of items or services to a joint
company and provide all goods and                      Manager/Supplier typically vary with         venture by a participant in the venture
services to the new company.                           the value or volume of business              is not an ‘‘arms length’’ transaction:
   These problematic arrangements                      generated for the new business by the
                                                       Owner. While in some arrangements               Another problem exists where an entity,
typically exhibit certain common                                                                    which is both a provider and supplier of
elements. First, the Owner expands into                certain payments are fixed (for example,
                                                                                                    items or services and joint venture partner
a related line of business, which is                   the management fee), other payments,         with referring physicians, makes discounts to
dependent on referrals from, or other                  such as payments for goods and services      the joint venture as a way to share its profits
business generated by, the Owner’s                     supplied by the Manager/Supplier, will       with the physician partners. Very often this
                                                       vary based on the number of goods and        entity furnishes items or services to the joint
existing business.3 The new business
                                                       services provided. In other words, the       venture, and also acts as the joint venture’s
line may be organized as a part of the
                                                       aggregate payment to the Manager/            general partner or provides management
existing entity or as a separate                                                                    services to the joint venture. * * * These
                                                       Supplier from the whole arrangement
subsidiary. Typically, the new business                                                             arrangements are not arms length
                                                       will vary with referrals from the Owner.
primarily serves the Owner’s existing                                                               transactions where the joint venture shops
                                                       Likewise, the Owner’s payments, that is,
patient base.                                                                                       around for the best price on a good or
                                                       the difference between the net revenues
   Second, the Owner neither operates                                                               service. Rather it has entered into a collusive
                                                       from the new business and its expenses       arrangement with a particular provider or
the new business itself nor commits
                                                       (including payments to the Manager/          supplier of items or services that seeks to
substantial financial, capital, or human
                                                       Supplier), also vary based on the            share its profits with referring physician
resources to the venture. Instead, it
                                                       Owner’s referrals to the new business.       partners. [We did] * * * not intend to protect
contracts out substantially all the                                                                 these types of transactions which are
                                                       Through these contractual payments,
operations of the new business. The                                                                 sometimes made to appear as ‘‘discounts’’
                                                       the parties are able to share the profits
Manager/Supplier typically agrees to                                                                * * * (Emphasis added) (See 56 FR 35977;
                                                       of the new line of business.
provide not only management services,                                                               July 29, 1991).
but also a range of other services, such               B. Safe Harbor Protection May Be               In short, a discount is not based on
as the inventory necessary to run the                  Unavailable                                  arms length transaction if it is provided
business, office and health care                          Under the kickback statute, a number      by a seller to a purchaser in connection
personnel, billing support, and space.                 of statutory and regulatory ‘‘safe           with a common venture, regardless of
While the Manager/Supplier essentially                 harbors’’ immunize certain                   whether the venture is memorialized in
operates the business, the billing of                  arrangements that might otherwise            separate contracts.
insurers and patients is done in the                   violate the anti-kickback statute. (See 42     Second, even if the various contracts
name of the Owner. In many cases, the                  U.S.C. 1320a-7b(b)(3); 42 CFR                could fit in one or more safe harbors,
contractual arrangements result in either              1001.952.) To qualify for safe harbor        they would only protect the
   3 The Owner’s referrals may be direct or indirect
                                                       protection, an arrangement must fit          remuneration flowing from the Owner
and may include not only ordering or purchasing
                                                       squarely in one of these safe harbor         to the Manager/Supplier for actual
goods or services, but also ‘‘arranging for’’ or       provisions. Some parties attempt to          services rendered. In the contractual
‘‘recommending’’ goods and services. See section       carve otherwise problematic contracting      arrangements that are the subject of this
1128B(b) of the Act. For example, a hospital may       arrangements into several different          Bulletin, however, the illegal
generate business for a DME company,
notwithstanding that orders for specific DME items
                                                       contracts for discrete items or services     remuneration is often the difference
must be signed by a physician who may or may not       (e.g., a management contract, a vendor       between the money paid by the Owner
be a hospital employee.                                contract, and a staffing contract), and      to the Manager/Supplier and the
23150                         Federal Register / Vol. 68, No. 83 / Wednesday, April 30, 2003 / Notices

reimbursement received from the                          Supplier provides all, or many, of the                     The Fraud and Abuse Control
federal health care programs. By                         following key services:                                 Program, established by the Health
agreeing effectively to provide services                    • Day-to-day management;                             Insurance Portability and
it could otherwise provide in its own                       • Billing services;                                  Accountability Act of 1996 (HIPAA),
right for less than the available                           • Equipment;                                         authorized the OIG to provide guidance
reimbursement, the Manager/Supplier is                      • Personnel and related services;                    to the health care industry to prevent
providing the Owner with the                                • Office space;                                      fraud and abuse and to promote the
opportunity to generate a fee and a                         • Training;                                          highest level of ethical and lawful
profit. The opportunity to generate a fee                   • Health care items, supplies, and                   conduct. To further these goals, the OIG
is itself remuneration that may                          services.5                                              issues Special Advisory Bulletins about
implicate the anti-kickback statute.                        In general, the greater the scope of                 industry practices or arrangements that
                                                         services provided by the Manager/                       potentially implicate the fraud and
C. Indicia of a Suspect Contractual Joint                                                                        abuse authorities subject to enforcement
                                                         Supplier, the greater the likelihood that
Venture                                                                                                          by the OIG.
                                                         the arrangement is a contractual joint
   To help identify the suspect                          venture.                                                  Dated: March 27, 2003.
contractual joint ventures that are the                     Remuneration. The practical effect of                Dennis J. Duquette,
focus of this Special Advisory Bulletin,                 the arrangement, viewed in its entirety,                Acting Principal Deputy Inspector General.
we describe below some characteristics,                  is to provide the Owner the opportunity                 [FR Doc. 03–10626 Filed 4–29–03; 8:45 am]
which, taken separately or together,                     to bill insurers and patients for business
                                                                                                                 BILLING CODE 4150–01–P
potentially indicate a prohibited                        otherwise provided by the Manager/
arrangement. This list is illustrative, not              Supplier. The remuneration from the
exhaustive.                                              venture to the Owner (i.e., the profits of              DEPARTMENT OF HEALTH AND
   New Line of Business. The Owner                       the venture) takes into account the value               HUMAN SERVICES
typically seeks to expand into a health                  and volume of business the Owner
care service that can be provided to the                 generates.                                              National Institutes of Health
Owner’s existing patients. As illustrated                   Exclusivity. The parties may agree to
in Part A, examples include, but are not                 a non-compete clause, barring the                       Proposed Collection; Comment
limited to, hospitals expanding into                     Owner from providing items or services                  Request; National Institute of Diabetes
DME services, DME companies                              to any patients other than those coming                 and Digestive and Kidney Diseases
expanding into the nebulizer pharmacy                    from Owner and/or barring the                           Information Clearinghouses Customer
business, or nephrologists expanding                     Manager/Supplier from providing                         Satisfaction Survey
into the home dialysis supply business.4                 services in its own right to the Owner’s
   Captive Referral Base. The newly-                                                                             SUMMARY: In compliance with the
                                                         patients.                                               requirement of Section 3506(c)(2)(A) of
created business predominantly or                           As noted above, these factors are
exclusively serves the Owner’s existing                                                                          the Paperwork Reduction Act of 1995 to
                                                         illustrative, not exhaustive. The                       provide opportunity for public comment
patient base (or patients under the                      presence or absence of any one of these
control or influence of the Owner). The                                                                          on proposed data collection projects, the
                                                         factors is not determinative of whether                 National Institute of Diabetes and
Owner typically does not intend to                       a particular arrangement is suspect. As
expand the business to serve new                                                                                 Digestive and Kidney Diseases (NIDDK),
                                                         indicated, this Special Advisory                        the National Institutes of Health (NIH),
customers (i.e., customers not already                   Bulletin is not intended to describe the
served in its main business) and,                                                                                will publish periodic summaries of
                                                         entire universe of suspect contractual                  proposed projects to be submitted to the
therefore, makes no or few bona fide                     joint ventures. This Bulletin focuses on
efforts to do so.                                                                                                Office of Management (OMB) for review
                                                         arrangements where substantially all of                 and approval.
   Little or No Bona Fide Business Risk.                 the operations of a new line of business
The Owner’s primary contribution to                      are contracted out to a would-be                        Proposed Collection
the venture is referrals; it makes little or             competitor. Arrangements involving the                    Title: NIDDK Information
no financial or other investment in the                  delegation of fewer than substantially                  Clearinghouses Customer Satisfaction
business, delegating the entire operation                all services, or delegation to a party not              Survey. Type of Information Request:
to the Manager/Supplier, while                           otherwise in a position to bill for the                 EXTENSION. The OMB control number
retaining profits generated from its                     identical services, may also raise                      0925–0480 expires July 31, 2003. Need
captive referral base. Residual business                 concerns under the anti-kickback                        and Use of Information Collection:
risks, such as nonpayment for services,                  statute, depending on the                               NIDDK is conducting a survey to
are relatively ascertainable based on                    circumstances.                                          evaluate the efficiency and effectiveness
historical activity.                                        The Office of Inspector General (OIG)                of services provided by NIDDK’s three
   Status of the Manager/Supplier. The                   was established at the Department of                    information clearinghouses: National
Manager/Supplier is a would-be                           Health and Human Services by Congress                   Diabetes Information Clearinghouse,
competitor of the Owner’s new line of                    in 1976 to identify and eliminate fraud,                National Digestive Diseases Information
business and would normally compete                      abuse, and waste in the department’s                    Clearinghouse, National Kidney and
for the captive referrals. It has the                    programs and to promote efficiency and                  Urologic Diseases Information
capacity to provide virtually identical                  economy in departmental operations.                     Clearinghouse. The survey responds to
services in its own right and bill                       The OIG carries out this mission                        Executive Order 12862, ‘‘Setting
insurers and patients for them in its                    through a nationwide program of audits,                 Customer Service Standards,’’ which
own name.                                                investigations, and inspections.                        requires agencies and departments to
   Scope of Services Provided by the
                                                                                                                 identify and survey their ‘‘customers to
Manager/Supplier. The Manager/                              5 The Manager/Supplier may also provide
                                                                                                                 determine the kind and quality of
                                                         marketing services, although in many instances no
  4 These examples are illustrative only. This list is   such services are required since the Owner
                                                                                                                 service they want and their level of
not intended to suggest that other analogous             generates substantially all of the venture’s business   satisfaction with existing service.’’
ventures are not equally suspect.                        from its existing patient base.                         Frequency of Response: On occasion.
